U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

March 3, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Abdul Razak Ali v. Joseph R. Biden, President of the United States, et al.,
No. 20-888

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 28,
2020, and placed on the docket on January 4, 2021. The government’s response is now due, after
one extension, on March 5, 2021. We respectfully request, under Rule 30.4 of the Rules of this
Court, a further extension of time to and including April 5, 2021, within which to file the
government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

20-0888
ALI, ABDUL RAZAK
JOSEPH R. BIDEN, PRESIDENT OF THE UNITED
STATES, ET AL.

SHAYANA DEVENDRA KADIDAL
CENTER FOR CONSTITIONAL RIGHTS
666 BROADWAY
7TH FLOOR
NEW YORK, NY 10012
212-614-6438
KADIDAL@CCRJUSTICE.ORG
ROBERT S. SMITH
FRIEDMAN KAPLAN SEILER & ADELMAN
LLP
7 TIMES SQUARE
NEW YORK, NY 10036
212-833-1100
RSMITH@FKLAW.COM

